 U.S. Department of the Interior
 Office of Inspector General




            AUDIT REPORT


   FOLLOWUP OF RECOMMENDATIONS
      CONCERNING REPAYMENT OF
MUNICIPAL AND INDUSTRIAL WATER SUPPLY
          INVESTMENT COSTS,
        BUREAU OF RECLAMATION

              REPORT NO. 00-I-270
                 MARCH 2000
U.S. Department of the Interior                            Office of the Inspector General


                             EXECUTIVE SUMMARY

               Followup of Recommendations Concerning Repayment of
               Municipal and Industrial Water Supply Investment Costs,
                               Bureau of Reclamation
                                Report No. 00-I-270
                                     March 2000


BACKGROUND

 Our August 1992 audit report “Repayment of Municipal and Industrial Water Supply
 Investment Costs, Bureau of Reclamation” (No. 92-I-l 128) stated that the Bureau of
 Reclamation (BOR) was not fully recovering the Government’s costs of financing municipal
and industrial water supply facilities that were originally constructed to supply water for
irrigation purposes. According to the report, this occurred primarily because BOR had not
established the controls needed to identify changes in water use from irrigation to municipal
and industrial purposes, As a result, we estimated that BOR was not recovering financing
costs of more than $1.3 million annually on 11 projects reviewed. We also reported that
BOR guidelines did not include provisions to allow the Government to fully recover
financing costs from the date project construction was completed to the date that these
facilities were converted to municipal and industrial purposes. Consequently, we estimated
that for the 11 projects, BOR would not recover municipal and industrial financing costs
ranging from $23 million, using project interest rates, to $128 million, using U.S. Treasury
interest rates. To improve BOR’s internal controls and ensure that the Government’s
financing costs are fully recovered from project beneficiaries, we recommended that BOR
take the following actions: establish internal controls to require periodic reviews of annual
project water use to ensure that the quantities of water delivered are in conformance with the
contract terms (Recommendation 1); revise its guidelines to provide for the recovery of an
equitable portion of the Government’s financing costs on facilities that have been converted
to municipal and industrial use (Recommendation 2); and compute and recover the
Government’s financing costs on the 11 projects identified as having water use conversions
and on any other projects where conversions have occurred, as identified through
implementation of our recommendations (Recommendation 3). BOR agreed to implement
the first recommendation and the five action items established by the Assistant Secretary for
Policy, Management and Budget in lieu of the other two recommendations.

OBJECTIVE

The objective of our audit was to determine whether BOR had taken sufficient actions to
implement the recommendations made in our August 1992 audit report and whether any new
recommendations were warranted.
RESULTS IN BRIEF

Overall, we found that BOR had not taken suff%zient actions to implement the
recommendations made in our August 1992 audit report. Specifically, BOR had not
developed procedures or conducted adequate reviews to ensure that changes in water use
were identified and had not completed four of the five agreed-upon actions designed to
provide policy guidance and assist it in valuing and reporting on water use conversions to
ensure that the Government fully recovered the cost of financing municipal and industrial
water supply facilities that were originally constructed to supply water for irrigation
purposes. As a result, BOR did not have sufficient procedures and controls to identify
changes in water use and ensure that an equitable portion of the Government’s costs of
financing the facilities were recovered. Based on our current review, we identified financing
costs of about $217,000 on 4 of 12 projects reviewed that BOR will not recover annually.
In addition, BOR has lost the opportunity to recover financing costs of about $2.3 million
associated with water use conversions on six projects identified in our August 1992 report.

RECOMMENDATIONS

We recommended that BOR’s Commissioner establish uniform and consistent control
procedures that require periodic reviews of annual project water use to ensure that the
quantities delivered and used are in conformance with the water contracts, complete the five
action items that are cited in this report, and report BOR’s lack of adequate procedures to
identify water conversions in BOR’s annual assurance statement on management controls
as a material weakness under the Federal Managers’ Financial Integrity Act.

AUDITEE COMMENTS AND OIG EVALUATION

BOR said that it “agrees in principle” with the recommendation relating to requiring
periodic reviews of annual project water use and would establish a task group responsible
for “developing various options for Reclamation-wide implementation of directives.” BOR
concurred with the remaining two recommendations relating to completing five action items
and reporting the lack of procedures for identifying water conversions as a material
weakness. Based on the response, we considered the three recommendations resolved but
not implemented.




                                             2
                                                                                   W-IN-BOR-001-99-D


               United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240




                                                                                          March 3 1,200O

                                        AUDIT REPORT

Memorandum

To:         Assistant Secretary for Water and Science

From:       Roger La Rouche %eL=
            Acting Assistant Inspector General for Audits

Subject: Audit Report on Followxtp of Recommendations Concerning Repayment of
         Municipal and Industrial Water Supply Investment Costs, Bureau of
         Reclamation (No. 00-I-270)

                                       INTRODUCTION
This report presents the results of our audit of actions taken by the Bureau of Reclamation
(BOR) to implement the recommendations made in our August 1992 audit report entitled
“Repayment of Municipal and Industrial Water Supply Investment Costs, Bureau of
Reclamation” (No. 92-I-l 128). The objective ofour current audit was to determine whether
BOR had taken sufficient actions to implement the recommendations made in the August
1992 audit report and whether any new recommendations were warranted.

BACKGROUND

BOR has constructed more than 120 multipurpose projects, which provide, among other
benefits, water for irrigation and municipal and industrial purposes in the 17 western states.
Construction of these projects was financed primarily with funds appropriated by the
Congress. In accordance with Reclamation law,’ water users enter into contracts with BOR
to repay the Government’s investment in those projects. Beginning with project
construction, BOR computes and is supposed to recover, from municipal and industrial water
contractors, interest on their construction obligations at rates established by Reclamation law.
However, to encourage agricultural development within the western states, the Congress has


‘Reclamation law is a term used to refer to the total body of public laws governing the reclamation program,
beginning with the Reclamation Act of 1902 and including all laws amending and supplementing the Act.


                                                     3
subsidized irrigation contractors by not authorizing BOR to assess and collect interest on the
repayment obligations associated with irrigation water deliveries.

Because of population growth in the western United States, including areas served by BOR
water projects, the demand for municipal and industrial water supplies has increased
significantly, with deliveries from BOR projects doubling since 1965. Because of this
increased demand, project facilities originally constructed by BOR to provide water for
irrigation purposes have been used to provide more water for municipal and industrial
purposes than was originally planned.

In our August 1992 audit report, we stated that BOR was not fully recovering the
Government’s costs of financing municipal and industrial water supply facilities that were
originally constructed to supply water for irrigation purposes. This occurred primarily
because BOR had not established the controls needed to identify changes in water use from
irrigation to municipal and industrial purposes. As a result, we estimated that BOR was not
recovering financing costs of more than $1.3 million annually on 11 projects reviewed. \Ve
also reported that BOR guidelines did not include provisions to allow the Government to
fully recover financing costs from the date project construction was completed to the date
that these facilities were converted to municipal and industrial purposes. Consequently, we
estimated that for the 11 projects, BOR would not recover municipal and industrial financing
costs ranging from $23 million, using project interest rates, to $128 million, using U.S.
Treasury interest rates. To improve BOR’s internal controls and ensure that the
Government’s financing costs are fully recovered from project beneficiaries, we
recommended that BOR take the following actions: establish internal controls to require
periodic reviews of annual project water use to ensure that the quantities of water delivered
are in conformance with the contract terms (Recommendation 1); revise its guidelines to
provide for the recovery of an equitable portion of the Government’s financing costs on
facilities that have been converted to municipal and industrial use (Recommendation 2); and
compute and recover the Government’s financing costs on the 11 projects identified as
having water use conversions and on any other projects where conversions have occurred,
as identified through implementation of our recommendations (Recommendation 3).

In response to Recommendation 1, BOR agreed to implement procedures to require periodic
reviews of the water quantities delivered to ensure that they are in conformance with
contractual terms. Based on BOR’s response, we considered Recommendation 1 resolved
but not implemented, and the Department of the Interior reported the control deficiency as
a material weakness under the Federal Managers’ Financial Integrity Act in December 1992.
In December 1994, the Assistant Secretary for Policy, Management and Budget considered
the recommendation implemented based on corrective actions cited by BOR, and in
December 1995, the Department reported that the material control weakness had been
corrected.

In response to Recommendations 2 and 3, BOR agreed to revise its guidelines to ensure that
an “equitable share” ofthe Government’s financing costs are recovered during the repayment
period. Also, BOR agreed to compute and recover an “equitable share” of the Government’s
financing costs on the projects included in the audit report and on other projects where
changes in water use have occurred. In accordance with the Departmental Manual, we

                                              4
referred the two recommendations to the Assistant Secretary for Policy, Management and
Budget in February 1993 for tracking of implementation. However, by November 1996,
BOR changed its position and stated that it did not concur with these recommendations.
Therefore, Policy, Management and Budget resolved the matter in July 1997 by establishing,
in lieu of the recommendations, five action items, which BOR agreed to implement. BOR
reported in January 1999 that it had completed actions on four of the five items. BOR
officials told us in December 1999 that work on the remaining item would be completed by
March 3 1,200O.

SCOPE OF AUDIT

The scope of our current audit included an evaluation of the actions taken by BOR to
implement Recommendation 1 in the August 1992 report and the five action items specified
in the July 25, 1997, memorandum that resolved Recommendations 2 and 3. To accomplish
our objective, we interviewed officials from BOR’s Denver Office and BOR’s regional and
area offices (see Appendix 2) and reviewed supporting documentation pertaining to the
actions taken in response to Recommendation 1 and the action items. In addition, we
reviewed the latest available water usage records at three of BOR’s five regions and
compared these amounts with amounts recorded in fiscal year 1992 to identify additional
conversions of use. In instances where we identified increased municipal and industrial
water usage, we reviewed contracts, legislation, and other documents to determine whether
the increased municipal and industrial use was authorized and whether the contractor had
paid municipal and industrial water rates to BOR.

We conducted our audit from May through September 1999 in accordance with the
“Government Auditing Standards,” issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that were
considered necessary under the circumstances. We also reviewed the Departmental Reports
on Accountability for fiscal years 1997 and 1998, which included information required by
the Federal Managers’ Financial Integrity Act, and BOR’s annual assurance statements on
management controls for fiscal years 1997 and 1998 and determined that no material
weaknesses were reported that directly related to the objective and scope of our audit.

We also evaluated BOR’s system of internal controls related to our audit objective. We
found that BOR did not establish sufficient procedures to ensure that conversions of water
use from irrigation to municipal and industrial purposes were identified. The internal control
weakness is discussed in the Results of Audit section of this report. The recommendations,
if implemented, should improve the internal controls in this area.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports that directly related to the objective and scope of our audit.




                                              5
                              RESULTS OF AUDIT
 Overall, we found that BOR had not taken sufficient actions to implement
 Recommendation 1 or to complete four of the five action items agreed to as a result of our
August 1992 audit report. To resolve Recommendation 1, BOR agreed to develop
 “Reclamation Instructions,” which would establish procedures for monitoring water use and
require periodic reviews to ensure that the quantities of water delivered are in conformance
with contractual terms. However, we found that BOR had not developed procedures or
conducted adequate reviews to ensure that changes in water use were identified. To resolve
Recommendations 2 and 3, BOR agreed to take five actions designed to provide policy
guidance and assist BOR in valuing and reporting on water use conversions to ensure that
the Government fully recovers the cost of financing municipal and industrial water supply
 facilities that were originally constructed to supply water for irrigation purposes. We found
that actions were not completed on four of the five items in that BOR did not (1) develop
example water rates for facilities expecting future conversions, (2) report annually
(beginning with fiscal year 1997) on the individual quantities and prices of the water
converted during the year, (3) conduct economic studies to estimate the demand for
municipal and industrial water in major markets supplied by BOR, and (4) issue guidance
regarding the incorporation of contract language for the periodic reallocation of costs based
on current water use. As a result, we found that BOR did not ha\-e sufficient procedures and
controls to identify changes in water use and ensure that an equitable portion of the
Government’s costs of’financing these facilities were recovered. Based on our current
review, we identified financing costs of about $217,000 on 4 of 12 projects reviewed that
BOR will not recover annually. In addition, BOR has lost the opportunity to recover
financing costs of about $2.3 million associated with water use conversions on six projects
identified in our 1992 report.

BOR Actions
Our review of BOR’s efforts to implement Recommendation 1 and the agreed-upon action
items are summarized in the paragraphs that follow.

    Recommendation 1. “Establish internal controls requiring periodic reviews of annual
project water use to ensure that the quantity delivered conforms with that specified in the
contracts.”

In response to the recommendation, BOR stated that it would develop “Reclamation
Instructions” to require periodic reviews to ensure that the quantities of water delivered are
in conformance with contractual terms. We found that instead of”Reclamation Instructions,”
a November 22, 1994, policy memorandum was issued by the Commissioner, which stated:

       The regional offices and area offices are directed to establish procedures to
       periodically review water deliveries to ensure they conform to the contract
       provisions. As a part of the implementation of this recommendation, you
       should review your data reporting procedures to ensure that accurate data is
       being reported by the districts. . . . It is anticipated Reclamation will adopt


                                              6
          some internal auditing procedures to verify overall accuracy of the
          monitoring program and the reporting and record keeping.
                                                                                                         .
Based on this memorandum, BOR and the Assistant Secretary for Policy, Management and
Budget considered the recommendation to be implemented, and the Department considered
the material control weakness reported under the Federal Managers’ Financial Integrity Act
to be corrected. However, we believe that the memorandum did not establish the
recommended procedures and the necessary internal controls because BOR’s regional and
field offices did not develop the Commissioner’s directed procedures to verify water use,
conduct sufficient reviews to ensure compliance with contractual terms, or verify the overall
accuracy of the monitoring program. Instead, at the regional and field offices that we visited
or contacted, BOR officials cited “other” procedures and reviews which they believed
satisfied the intent of the policy memorandum such as the following:

    - Reclamation Reform Act reviews. BOR officials from the Mid-Pacific and Upper
Colorado Regions stated that certain procedures performed during their water contractor
reviews for compliance with requirements of the Reclamation Reform Act of 1982
(43 U.S.C. 5 390) were used to identify changes in water use. At the Mid-Pacific Region,
officials stated that since 1997, their reviews included asking contractor officials whether
they had established procedures to assess municipal and industrial water rates for water
delivered to small tracts.’ At the Upper Colorado Region. officials stated that their reviews
included an examination of water user lists to identify potential municipal and industrial
water users and that, if any were noted, the cognizant BOR repayment specialist would be
asked to determine whether a conversion of use had occurred.

    - Contract renewal procedures. ,4t all five regions contacted, officials stated that they
addressed conversions of water use when they renewed existing contracts. For conversions
proposed by water districts, BOR included provisions in contracts to recover a portion of the
Government’s costs associated with the converted water. To allow for future conversions,
BOR also included appropriate provisions in contracts to allow charging municipal and
industrial water rates.

    - Water delivery tracking. At all five regions contacted, officials stated that the quantity
of water delivered to water contractors was “tracked” by BOR on projects that it operated.
By doing this, according to those officials, BOR ensured that the amount of water it
delivered to water contractors was in conformance with its contractual terms.

We believe that the procedures and reviews cited by regional officials provide a part of the
internal control environment anticipated by the Commissioner’s policy memorandum and/or
Recommendation 1. However, we believe that the procedures do not ensure that (1) the
amounts of irrigation and municipal and industrial water use reported by water contractors
are accurate and (2) the use of the water is in conformance with contract provisions. Such
expanded procedures could be performed during the Reclamation Reform Act reviews,
which are performed on a 3-year cycle, but alternative arrangements and procedures would


‘Water delivered to small parcels of land, as defined in water district contracts, is considered to be used for
municipal and industrial purposes.

                                                       7
be needed for water contractors that are not subject to these reviews.3 Furthermore, we found
that no action had been taken to establish procedures for verifying the overall accuracy of the
monitoring program.                                                                     .

As part of our evaluation of the regions’ cited alternative procedures, we determined the
extent to which the regions collected water usage data (amount of municipal and industrial
and irrigation water deliveries by water contractors).4 We found that in 1998, the regions
collected water use data for only 58 (17 percent) of the 342 water contractors served by
BOR, while in 1992, the regions collected water use data for 307 (90 percent) of the
342 water contractors. These water use data are compared in Table 1.

                        Table 1. Collection of Water Use Data
                          Number of            Water Contractors Reporting
                            Water              1992                 1998
            Region       Contractors Number Percent* Number Percent*
      Great Plains           126           112        89          3         2
      Lower Colorado          36            27        75         22        61
      Mid-Pacific              14’.         14       100          4        29
      Pacific Northwest      111           101        91          7         6
      Upper Colorado          55            53        96         22        40
       Total                342           307         90        58         17

      *The percentages of contractors reporting in 1992 and 1998 were calculated by dividing the
      number of contractors reporting each year by the total number of water contractors.

      **The number of water contractors for the Mid-Pacific Region excludes 102 Central Valley
      Project contractors that, under the terms of their contracts, were required to pay water rates based
      on the actual amount of water received.

As shown in Table 1, some regions collected a greater percentage of water use data than
other regions, but no regions verified the data submitted. Also, water contractors did not
report their data consistently. For example, a contractor reported municipal and industrial
water deliveries as miscellaneous deliveries in certain years and as municipal and industrial
in other years, while another contractor reported municipal and industrial water deliveries
as irrigation. We believe that BOR needs to ensure that accurate and complete water use data
are available in order to identify potential conversions. Because water use data were not
available from all contractors, we concluded that BOR’s ability to identify conversions in
a timely manner had not improved since our 1992 report was issued. As such, we believe
that a material control weakness still exists and should be reported in BOR’s annual


‘Water contractors that have fully met their construction repayment obligations are exempt from the Act’s
provisions.

41n our August 1992 report, we stated that BOR relied on data submitted by irrigation contractors to monitor
water use without verifying its accuracy or compliance with contractual amounts. At that time, BORpublished
this data in an annual document entitled “Summary Statistics,” but BOR discontinued the document after 1992.

                                                       8
assurance statement on management controls under the Federal Managers’ Financial
Integrity Act.

As part of our audit, we visited three of BOR’s regional offices to identify conversions of
water use from irrigation to municipal and industrial purposes. Based on the limited
reporting information available, we compared municipal and industrial water use reported
in 1998 with the use reported in 1992 on 12 projects and identified 4 projects’ for which
conversions of use had occurred that were not identified by BOR and were not covered by
authorizing legislation or contract provisions. We estimated that BOR did not recover
financing costs of about $2 1 7,0006 in 1998 associated with these conversions. We also
found that the Pacific Northwest Region did not take actions to recover financing costs for
conversions on six projects7 identified in our 1992 report. As such, we estimated that BOR
lost the opportunity to recover financing costs of about $2.3 million from 1993 to 1998 on
these projects.

To fully implement Recommendation 1 from our August 1992 report, we believe that BOR
should develop uniform and consistent control procedures to ensure that project water is used
in conformance with contract terms. Specifically, BOR should (1) collect and verify annual
water use data from all of its irrigation water contractors, (2) determine whether the water
was used in conformance with contract terms, and (3) maintain documentation of the
verifications performed and the determinations made.

    Action Item 1. “Issue policy guidance to the regions and develop example rates for
facilities expecting future conversions/transfers.”

In response to this action item, BOR issued a November 13, 1997, memorandum entitled
“Policy for Pricing Water Converting from Irrigation to Municipal and Industrial Service”
to its regions that contained policy which applies to all proposed conversions that have not
been reduced to contract unless an exception is approved by the Commissioner. Based on
our review of the policy, we believe that BOR completed the requirement to issue policy
guidance on water conversions. However, BOR did not develop “example rates” for
facilities expecting future conversions. Instead, the memorandum stated only that “additional
background information and guidance including examples of the current cost method d
be nrovided in the near future.” (Emphasis added.) According to a BOR official, the
example rates were not developed because BOR believed that the action taken to implement
Action Item 3 would meet the requirement. We do not agree with this position because the
wholesale market rates listed for Action Item 3 are too general and do not correlate to
specific BOR projects in which future conversions are anticipated. As such, we believe that
to consider the action completed, BOR needs to develop “example rates” specifically for its
projects in which future water conversions are expected.

‘These projects are Tucumcari, The Dalles, Crescent Lake Dam, and Ventura River.

‘This amount was computed in accordance with the Commissioner’s November 13,1997, policy memorandum
on pricing water conversions issued in response to Action Item 1.

‘These projects are Yakima, Lewiston Orchards, Owhyee, Rathdrum Prairie, Rogue River Basin, and Crooked
River.

                                                   9
    Action Item 2. “Provide the Assistant Secretary for Water and Science with an annual
report on the individual quantity and prices of the transfers and conversions that occurred
during the year. The first year report will be issued for fiscal year 1997.”

In response to this action item, BOR’s November 13,1997, policy memorandum established
criteria for documenting how pricing decisions for water conversions would be made and
stated that the Commissioner would submit annual reports to the Assistant Secretary
beginning with the completion of fiscal year 1997. However, as of September 1999, these
reports had not been submitted. A BOR official stated that a task group established to
complete implementation of Action Item 5 will prepare the first report. However, specific
milestones for completion of this action were not provided. As such, we do not consider
Action Item 2 implemented until the reports are prepared and submitted to the Assistant
Secretary for Water and Science.

    Action Item 3. “Conduct economic studies and compile existing information to estimate
the demand for M&I [municipal and industrial] water in the major markets supplied by
federal projects. Information will be distributed to the regions to be used in developing
pricing policies for water converted or transferred from agriculture to M&I [municipal and
industrial] uses.”

In response to this action item, BOR issued a November 2, 1998, memorandum entitled
“Wholesale Municipal and Industrial Water Rates” to its regions. The memorandum
presented primarily wholesale water rates for 149 water providers in 15 of the 17 western
states.’ However, according to the memorandum, BOR did not conduct economic studies
or compile data to estimate future demand for municipal and industrial water because of
“the complications associated with estimating the demand for municipal and industrial water
in different markets.” As such, we believe that BOR did not take sufficient actions to satisfy
the intent of the agreed-upon item. Therefore, to consider this action item complete, we
believe that this information is needed to assist BOR in estimating future water demand and
in developing prices for water conversions in the markets that BOR serves.

    Action Item 4. “Issue guidance regarding the incorporation of contract language to
provide for the periodic reallocation of costs based on current water use at the time and [for]
rate review at five year intervals.”

In response to this action item, BOR incorporated in its November 13, 1997, policy
memorandum, a requirement to review water rates at 5-year intervals but did not provide the
guidance to incorporate contract language for the periodic reallocation of costs based on
current water use. A BOR official said that a policy statement on the reallocation of costs
was being developed. We believe that this guidance is needed to consider the action item
complete and to provide for the recovery of an equitable share of the Government’s financing
costs attributable to water supplies converted from irrigation to municipal and industrial
purposes.



‘Excludes New Mexico and Idaho.

                                              10
    Action Item 5. “Review water transfer guidelines and determine if additional steps are
required to facilitate voluntary transfers of water. A written report will be distributed to all
regions and area offices.”

BOR’s established milestone for completion of this action item is March 31, 2000.
Therefore, we did not evaluate BOR’s actions for completeness.

Recommendations

We recommend that the Commissioner, Bureau of Reclamation:

    1. Establish uniform and consistent control procedures that require periodic reviews of
annual project water use to ensure that the quantity delivered and used is in conformance
with the water contracts. These procedures should include provisions to collect and verify
annual water use data, determine whether the use of the water is in accordance with contract
terms, and maintain documentation of the verifications performed and the determinations
made.

  2. Complete the five action items as agreed to with the Assistant Secretary for Policy,
Management and Budget that are cited in this report.

    3. Until Recommendation 1 is fully implemented, report BOR’s lack of adequate
procedures to identify water conversions in BOR’s annual assurance statement on
management controls as a material weakness under the Federal Managers’ Financial Integrity
Act.

BOR Response and Office of Inspector General Reply

In the March 1, 2000, response (Appendix 3) to the draft report from the BOR
Commissioner, BOR said that it “agrees in principle” with Recommendation 1 and concurred
with Recommendations 2 and 3. Based on the response, we consider the recommendations
resolved but not implemented. Accordingly, the unimplemented recommendations will be
referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

   Recommendation 1. Concurrence indicated.

    BOR Response. BOR stated that it “agrees in principle with the desirability of these
data and follow-up” and that it has “established a task group consisting of representatives
from the Denver, regional, and area office staffs to address the audit findings.” BOR fLrther
stated that the task group is responsible for “developing various options for
Reclamation-wide implementation of directives to meet the intent of the recommendation
taking into account regional budget, staffing, and program priorities.” According to BOR,
the task group will finalize a team report “outlining various viable options available to
Reclamation” by July 3 1,2000, when it intends to meet with the Audits staff “to discuss the
most viable options that meet Reclamation’s legislative and contractual responsibilities and
address the audit findings.”

                                              11
    Office of Inspector General Reply. We believe that BOR’s willingness to address both
the audit findings and Recommendation 1 provides a forum to mutuahy resolve the
recommendation. We are available to discuss and/or comment on the various options
considered by the task group. Accordingly, we believe that this action is sufficient to
consider Recommendation 1 resolved but not implemented.

Since the report’s recommendations are considered resolved, no further response to the
Office of Inspector General is required (see Appendix 4).

Section S(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                              12
                                                                                              APPENDIX 1


                  CLASSIFICATION OF MONETARY AMOUNTS


                    Finding Area                                                           Lost Revenues
Monitoring water use                                                                           $217,000*
Conversions identified in 1992 audit report                                                   2,262,000**

          Total                                                                             $2,479,000




*This amount is an estimate of the financing costs that the Government did not recover in 1998 and will not
recover annually on project investments related to changes in water use on the four projects identified in this
report.

**This amount is an estimate of the financing costs that the Government did not recover from 1993 to 1998 on
project investments related to changes in water use on the six projects identified in our 1992 report.


                                                      13
                                                               APPENDIX 2

                BUREAU OFFICES VISITED OR CONTACTED                    .’


                      Office                             Location

Denver Office                                   Lakewood, Colorado

Upper Colorado Regional Office                  Salt Lake City, Utah
   Provo Area Office                            Provo, Utah
   Albuquerque Area Office*                     Albuquerque, New Mexico
      El Paso Field Division*                   El Paso, Texas
   Western Colorado Area Office*                Grand Junction, Colorado

Great Plains Regional Office*                   Billings, Montana

Mid-Pacific Regional Office                     Sacramento, California
   Central California Area Office               Folsom, California
   South-Central California Area Office*        Fresno, California

Pacific Northwest Regional Office               Boise, Idaho
    Snake River Area Office - West*             Boise, Idaho

Lower Colorado Regional Office*                 Boulder City, Nevada




‘Offices contacted.


                                           14
                                                                                       APPENDIX 3
                                                                                        Page 1 of 3




m United States Department of the Interior
y_


 D-5010


                                         _MEMORANDIJM


 To:             Office of Inspector General
                  Attention: Assistant Inspector General for Audits

 From:           Eluid L. Martinez
                 Commissioner

 Subject:        Draft Audit Report on ‘-Followup of Recommendations Concerning Kcpayment of
                 Municipal and Industrial Water Supply Investment Costs. Bureau of
                 Reclamation,” Assignment No. W-IX-BOR-00 l-99-D

 The Bureau of Reclamation offers the following comments in response to the recommendations
 in the subject report.

 We recommend that the Commissioner, Bureau o!‘Reclamation:

 Recommendation 1:

 Establish uniform and consistent control procedures that require periodic reviews of annual
 project water use to ensure that the quantity delivered and used is in conformance with the water
 contracts. These procedures should include provisions to collect and verify annual water use
 data, determine whether the use of the water is in accordance with contract terms, and maintain
 documentation of the verifications performed and the determinations made.

         Resnonsc

         Reclamation agrees in priniciple wirh the desireability of these data and follow-up.
         Reclamation has established a task group consisting of representatives from the Denver,
         regional, and area office staffs to address the audit findings. The task group has been
         charged with developing various options for Reclamation-wide implementation of
         directives to meet the intent of the recommendation taking into account regional budget,
         staffing, and program priorities. By July 3 1, 2000, the task group will finalize a team
         report outlining various viable options available to Reclamation. At that time,
         Reclamation intends to meet with your audit staff to discuss the most viable options that
         meet Reclamation’s legislative and contractual responsibilities and address the audit
         findings.




                                                15
                                                                                      APPENDIX 3
                                                                                       Page 2 of 3




                                                                                           2   .

       In support of this effort, Reclamation has recently received approval from the Office of
       Management and Budget to reinstate the “Water User Crop Census Repot%” which will
       provide basic water use data for all Reclamation projects. The task group has also been
       charged with identifying additional information to supplement the crop census report for
       documenting conversions of water from one use to another. The task group will
       determine how the water delivery data will be verified and documented relative to the
       provisions of the water contracts. The responsible offtcial is the Director, Office of
       Policy.



Complete the five action items as agreed to with the Assistant Secretary for Policy, Management
and Budget that are cited in this report.

       Resvonse

       Concur. The five action items will be comp!eted in consultation with the staff of the
       Assistant Secretary for Policy, Management and Budget (PMB). Four of the five action
       items were considered to be complete; however, after further consultation with the PMB
       staff, it was determined that additional work needs to be completed. Portions of this
       additional work have already been undertaken and will be reviewed with the PMB staff.
       The planned completion date for the first four action items is September 30,200O. The
       fifth action item has been included as part of the activities of the Reclamation Task Group
       addressing water transfers. This activity includes a review of the Departmental
       “Principles Governing Voluntary Water Transactions That Involve Or Affect Facilities
       Owned or Operated by the Department of Interior.” The completion date for the fifth
       action item is dependent on the ability of the team to finish its activities; however, the
       team work is projected to be completed no later than December 31, 2000. The
       responsible official is the Director, Office of Policy.

Recommendation 3:

Until Recommendation 1 is fully implemented, report Reclamation’s lack of adequate procedures
to identify water conversions in Keclamation’s annual assurance statement on management
controls as a material weakness under the Federal Managers’ Financial Integrity Act.

       Resnonse

       Concur. If Recommendation 1 is not implemented by September 30, 2000, Reclamation
       will report this action as a material weakness in Reclamation’s fiscal year 2000 annual




                                               16
                                                                                      APPENDIX 3
                                                                                       Page 3 of 3




                                                                                  3

       assurance statement. The responsible official is Reclamation’s Management Control
       Coordinator.

If you have any questions or require additional information, please conlact Luis Maez at
(303) 4452793.




cc:    Assistant Secretary - Policy, Management and Budget, Attention: Benjamin Simon
       Assistant Secretary - Water and Science, Attention: Laura Brown




                                              17
                                                               APPENDIX 4



       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference               Status             Action Required

      1,2,and3           Resolved; not    No further response to the Office
                         implemented.     of Inspector General is required.
                                          The recommendations will be
                                          referred to the Assistant Secretary
                                          for Policy, Management and
                                          Budget for tracking of
                                          implementation.




                                     18
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420


                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 534 l- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-508 1

Commercial Numbers
    (202) 208-5300
   TDD (202) 208-2420
